CERTIFICATE OF SERVICE
I, Danielle Banks, hereby certify pursuant to Rule 29.3 that I served one copy
of the foregoing Application of Bishop Kenneth Shelton for Extension of Time to File
Petition for Writ of Certiorari copies on each party in the proceeding, as follows:
Kevin D. Kent, Esquire
Andrew S. Gallinaro, Esquire
CONRAD O’BRIEN PC
Centre Square, West Tower
1500 Market Street, Suite 3900
Philadelphia, PA 19102-2100

Attorneys for Respondent

Danielle Banks
Counsel for Applicant
Bishop Kenneth Shelton
Dated: February 10, 2020
4431424

